TN

COCKE

> E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B a ple contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 19-1104

MARK JANUS,
Petitioner,
v.
AMERICAN FEDERATION OF STATE, COUNTY,
AND MUNICIPAL EMPLOYEES, COUNCIL 31, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As requiréd by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
GOLDWATER INSTITUTE, CATO INSTITUTE, AND MACKINAC CENTER FOR PUBLIC
POLICY IN SUPPORT OF PETITIONER in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 2464 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 9th day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

f GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023

    

Notary Public Affiant 39693
